No.

IN THE
SUPREME COURT OF THE UNITED STATES

Eric Treantes — PETITIONER

(Your Name)
vs.
_United Stefes __ pasponvanns)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:

(xPetitioner has previously been granted leave to proceed in forma pauperis in

the following court(s): -
U.E Districl Gor LE Distuet st VeuNanpshie

VA Court ct Appec Is Fer tive First Crreurt

Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.

 

 

Petitioner’s affidavit or declaration in support of this motion is attached hereto.

 

 

 

Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:

 

 

The appointment was made under the following provision of law:

 

, or

tos By hud ttorneg

 

 

 

a copy of the order of appointment is appended. Encir

   
 

 

(Signature)
Raymond E.Gille Save
Me BBO 1923206
B75 Mass Are
Camb Age, AA SNBF

C6ID ©6/-3 AZ co wet

CAIIAchat am bend.
Supreme Court of the United States

No.

ERIC TREANTOS,
Petitioner,
V.
UNITED STATES OF AMERICA,

Respondent.

Certificate of Service
I, Raymond E. Gillespie, attorney for the petitioner, Eric Treantos, hereby certify that I
served the foregoing Petitioner’s Motion for Leave to Proceed in Forma Pauperis on all parties
by mailing first class, postage prepaid, one copy each to Seth R. Aframe, Assistant United States
Attorney, 53 Pleasant Street, Concord, New Hampshire 03301-3904 and to the Solicitor General
of the United States, Room 5616, Department of Justice, 950 Pennsylvania Avenue, N.W.,

Washington, D.C. 20530-0001 on the date indicated below:

Dated: October 21, 2020

   

nd E. Gillespie, Esquire
. B.B.O. # 192300

CJA Appointed Counsel

875 Massachusetts Avenue Suite 32
Cambridge, MA 02139

(617) 661-3222

Rgillespie] @prodigy.net

   
